     Department of Homeland Security

     ��������������������������



    FEMA Should Recover $1.6 Million of Public 

       Assistance Grant Funds Awarded to 

  Palm Beach County, Florida – Hurricane Frances





DA-13-22                                   July 2013

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security
                                             Washington, DC 20528 I www.oig.dhs.gov



                                                     JUL 1 0 2013

MEMORANDUM FOR:                        Major P. (Phil) May
                                       Regional Admi ·strator, Region IV
                                       Federal Em rgen               - t Agency

FROM:
                                       Assistant     t or  neral  c




                                       Office of mergency Management Oversight

SUBJECT:                               FEMA Should Recover $1.6 Million of Public Assistance Grant
                                       Funds Awarded to Palm Beach County, Florida- Hurricane Frances
                                       FEMA Disaster Number 1545-DR-FL
                                       Audit Report Number DA-13-22

We audited Public Assistance grant funds awarded to Palm Beach County, Florida (County) (FIPS
Code 099-99099-00). Our audit objective was to determine whether the County accounted for
and expended Federal Emergency Management Agency (FEMA) funds according to Federal
regulations and FEMA guidelines.

The County received a Public Assistance grant award totaling $40.1 million from the Florida
Division of Emergency Management (State), a FEMA grantee, for damages resulting from
Hurricane Frances, which occurred in September 2004. The award provided 100 percent FEMA
funding for the first 72 hours of emergency protective measures and debris removal activities,
and 90 percent funding thereafter for these two activities. The award also provided 90 percent
FEMA funding for permanent repairs to buildings, roads, and recreational facilities. The award
                                                       1
consisted of 88 large projects and 222 small projects.

We audited 16 large and 7 small projects with awards totaling $24.7 million (see Exhibit,
Schedule of Projects Audited) for debris removal, emergency protective measures, and
permanent repairs to building and recreational facilities. We limited our review of small
projects to determining whether the County (1) completed the projects and (2) received
duplicate benefits for the projects. The audit covered the period September 24, 2004, to
March 7, 2013, during which the County claimed $24.7 million of FEMA funding under the
projects reviewed. At the time of our audit, the County had completed work on all large
projects and had submitted a final claim to the State for project expenditures.



1
    Federal regulations in effect at the time of the disaster set the large project threshold at $54,100.
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

We conducted this performance audit between July 2012 and April 2013 pursuant to the
InspectorfGeneralfActfoff1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. To conduct this audit we
applied the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed County,
State, and FEMA personnel; reviewed the County’s procurement policies and procedures;
reviewed applicable Federal regulations and FEMA guidelines; and performed other procedures
considered necessary to accomplish our audit objective. We did not assess the adequacy of the
County’s internal controls applicable to its grant activities because it was not necessary to
accomplish our audit objective. However, we gained an understanding of the County’s method
of accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.


                                      RESULTS OF AUDIT

FEMA should recover $1,595,744 (Federal share $1,439,998) of grant funds awarded to the
County. The County did not account for projects on a project-by-project basis as required by
Federal regulations and FEMA guidelines. In addition, the County’s claim included $1,595,744
of questionable costs, as follows:

   •   $1,013,578 of unsupported contract costs;
   •   $277,596 of costs covered by insurance;
   •   $156,651 of ineligible project costs;
   •   $113,507 of duplicate benefits;
   •   $9,222 of excessive costs; and
   •   $25,190 of ineligible administrative costs.

Finding A: Grant Accounting

The County did not account for large projects on a project-by-project basis. According to 44
Code of Federal Regulations (CFR) 13.20(a)(2), fiscal control and accounting procedures of a
State and its subgrantees must be sufficient to permit the tracing of funds to a level of
expenditures adequate to establish that such funds have not been used in violation of the



www.oig.dhs.gov                                                                         DA-13-22
                                               2

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

restrictions and prohibitions of applicable statutes. Further, 44 CFR 206.205(b) requires that
large project expenditures be accounted for on a project-by-project basis.

The County initially set up FEMA disaster-account codes to record disaster costs. However, it
recorded very little expenditure in the accounts. Instead, the County commingled nearly all
disaster-related receipt and expenditure transactions with nondisaster transactions in its
general accounts, with no separate accounting establishing project balances, receipts, or
expenditures. As a result, we could not readily identify and trace total costs claimed under
each individual project to supporting documentation without direct assistance from County
officials.

County officials disagreed that project expenditures were not recorded separately in the
County’s accounting system. As discussed above, the County recorded project expenditures in
several disaster and general ledger accounts, which made it difficult to identify project
expenditures on a project-by-project basis.

Finding B: Supporting Documentation

The County did not have adequate documentation to support $1,013,578 of costs claimed
under several projects. Cost principles at 2 CFR 225, CostfPrinciplesfforfState,fLocal,fandfIndianf
TribalfGovernments, Appendix A, Section (C)(1)(j), state that a cost must be adequately
documented to be allowable under Federal awards. We question the $1,013,578, as follows:

   •	 The County claimed $765,586 under Project 8079 for vehicles and equipment (pickup
      trucks, flatbeds, trailers, generators, etc.) used by County employees in repair work
      completed by the water utilities department. The County did not have equipment
      activity logs or equivalent documentation that provided specific periods of use (e.g.,
      dates of use, along with beginning and ending times of use) for the equipment costs
      claimed. The County provided us force account equipment summaries with very limited
      pages that did not support the entire claim. Also, for generator use, the summaries did
      not show which operators were assigned generators so that we could at least compare
      the generator hours claimed to labor hours worked by the operator to determine the
      reasonableness of the equipment hours claimed. Therefore, we question the $765,586
      as unsupported.

   •	 The County claimed $180,000 of contract charges under Project 8107 for grinding,
      loading, hauling, and disposing of tree stumps. However, it did not have supporting
      documentation such as load tickets that included the stump location, quantity, size, etc.
      The County provided a task order and summary invoices but no other documentation to
      support the invoices. Therefore, we question the $180,000.


www.oig.dhs.gov	                                                                           DA-13-22
                                                 3

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   •	 The County claimed $32,703 under Project 8079 for items such as hoses, pumps,
      couplings, pipes, and nails taken from stock inventory in the water utilities department
      for water main break repairs and other disaster-related repairs. However, the
      inventory requisition summary provided by the County as support for the items did not
      identify actual inventory items, quantity, dates, inventory tickets, etc., required for us to
      validate the accuracy and eligibility of the charges. Therefore, we question the
      $32,703.

   •	 The County claimed $34,370 under emergency protective measures Project 7738 for
      various items such as mattresses, sheets, and blankets taken from the sheriff’s
      department inventory supply and used by employees during the disaster. The scope of
      work stated that the sheriff’s department purchased and placed the items in inventory
      and then withdrew them as needed for the disaster. However, the inventory requisition
      summary sheet that the County provided as support for the items did not include the
      actual inventory item, quantity, dates of use, etc. As a result, the supporting
      documentation was insufficient for us to determine what items were used during the
      disaster. Therefore, we question $14,532.

   •	 The County claimed $14,517 under emergency protective measures Project 8079 for
      food items purchased by the water utilities department. A County official said that the
      food purchases were for meals provided to the employees of mutual aid utility
      companies that assisted the County during the disaster. However, the mutual aid
      agreements and County policy do not require the County to provide food to mutual aid
      employees. Therefore, we question $14,517.

   •	 The County claimed $20,880 of contract labor charges under debris removal Project
      7907 for a project engineer. The charges were based on the engineer working 174
      hours at a contract rate of $120 per hour during the period of September 18–30, 2004.
      However, the County did not have time and attendance records to support 52 of the
      174 hours billed. Therefore, we question $6,240 of charges related to the 52 hours that
      were unsupported.

County officials agreed with the finding for Project 7738. However, they disagreed with the
finding for Project 8107, saying that they believed the task order and the invoices were
sufficient supporting documentation for the debris activities performed. They also disagreed
with the findings for Projects 8079 and 7907, saying that they would review their project files
and provide supporting documentation to FEMA to show that the costs are eligible.




www.oig.dhs.gov	                                                                          DA-13-22
                                                4

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

Finding C: Costs Covered by Insurance

The County’s claim included at least $277,596 of costs covered by insurance. Section 312 of thef
RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as amended, states that no
entity will receive assistance for any loss for which financial assistance has already been
received from any other program, from insurance, or from any other source.

At the time of our audit, a FEMA insurance specialist had not conducted a full review of the
County’s insurance proceeds. Therefore, insurance proceeds were not applied to reduce
eligible project costs. Nonetheless, in our limited analysis of the County’s insurance settlement,
we noted that $277,596 of costs claimed by the County under several projects were for work
that was covered by insurance and, therefore, not eligible for FEMA funding.

FEMA awarded the County $2,813,707 under several projects, which included a deduction of
$527,088 for estimated insurance proceeds. However, based on actual insurance proceeds, the
projects’ eligible costs should have been reduced an additional $277,596. Therefore, we
question the $277,596 as shown in table 1.

                                 Table 1: Costs Covered by Insurance
                                                               Estimated       Actual
      Project    Project        Project                        Insurance     Insurance      Amount
      Number       Size       Description         Award        Proceeds      Proceeds      Questioned2
       8289       Large       Building 503       $2,632,691     $458,358       $ 598,358      $140,000
       7724       Large        Palm Tran
                              Connection            116,694             –       407,758         116,694
        3967      Small
                           Fire Station No. 43       30,761       11,861         15,460           3,599
        4050      Small    Paul Rardin Park –
                             Picnic Shelters         19,987       23,266         30,466           7,200
       3704       Small    Fire Station No. 15        9,471       19,678         25,678           6,000
       3975       Small    Fire Station No. 29        4,103       13,925         18,122           4,103
      Total                                      $2,813,707     $527,088     $1,095,842        $277,596

County officials disagreed with this finding. They said that they would provide FEMA with
additional supporting documentation showing that the costs are eligible.




2
 The differences between the insurance deducted by FEMA and the insurance actually paid for Projects 7724 and
3975 were more than the award amounts. Therefore, we limited the differences questioned to the award
amounts.



www.oig.dhs.gov                                                                                     DA-13-22
                                                      5

                              OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

Finding D: Ineligible Costs

The County’s claim included $156,651 of ineligible contract and force account charges. We
question the $156,651, as follows:

   •	 The County claimed $134,891 of contract labor charges under Project 7907 for debris
      monitors whose performance was outside the project’s authorized scope of work. The
      County claimed $1,193,954 of contract charges for debris monitors that performed work
      under the project. We reviewed the County’s supporting documentation and identified
      $134,891 of charges that were for the period of October 1–15, 2004, which was the
      period related to Hurricane Jeanne activities, which followed Hurricane Frances later in
      September. According to 44 CFR 206.205(b), payments under large projects must be
      based on actual costs incurred for eligible work. Also, 2 CFR 225, CostfPrinciplesfforf
      State,fLocalfandfIndianfTribalfGovernments, Attachment A, Section C.1(a) states that
      costs under Federal awards must be both reasonable and necessary. We question the
      $134,891 because it is for work outside the authorized disaster period of Hurricane
      Frances. However, we recommend that FEMA review the contract labor charges for the
      period of October 1–15, 2004, and make a determination on the eligibility of the costs
      for Hurricane Jeanne. Therefore, we question the $134,891.

       County officials agreed with this finding, saying they would request that FEMA and the
       State review these costs to determine their eligibility under Hurricane Jeanne.

   •	 The County claimed $14,360 under Project 7738 for food provided to County employees
      who worked overtime on project activities. However, the County did not have a policy
      that required it to provide meals to the employees when they worked overtime.
      Federal regulations at 2 CFR 225, CostfPrinciples forfState,fLocal,fandfIndianfTribalf
      Governments, Appendix A, Paragraph C(1)(e) state that to be allowable under Federal
      awards, costs must be consistent with policies, regulations, and procedures that apply
      uniformly to both Federal awards and other activities of the governmental unit. The
      ineligible claim occurred because a FEMA inspector inadvertently allowed the cost
      despite the absence of a County policy specifying that the County was required to
      provide the meals. We question the $14,360.

   •	 The County claimed $61,800 of contract charges under Project 8107 for stump removal.
      However, we noted that 6 stumps ranging from 24 to 75 inches in diameter were
      removed from the jurisdiction of the city of Palm Beach Gardens, a neighboring city, for
      a total of $7,400. Federal regulation 44 CFR 206.223(a)(3) states that to be eligible for
      financial assistance an item of work must be the legal responsibility of the applicant.
      Therefore, we question the $7,400.


www.oig.dhs.gov	                                                                       DA-13-22
                                              6

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


       County officials agreed with the finding for Project 7738. However, they disagreed with
       the questioned costs for Project 8107. County officials provided us with additional
       documentation for our consideration after the exit conference. However, none of the
       documentation provided was sufficient to support the costs questioned. Therefore, our
       findings remain unchanged.

Finding E: Duplication of Benefits

The County’s claim included $113,507 of debris removal costs funded by the Federal Highway
Administration (FHWA). According to Section 312 of the RobertfT.fStaffordfDisasterfRelieffandf
EmergencyfAssistancefAct, as amended, no entity will receive assistance for any loss in which
the entity has already received financial assistance from any other program, from insurance, or
from any other source. We question $113,507 as follows:

   •	 The County claimed $77,687 of debris removal costs under several projects. However,
      based on actual FHWA proceeds received for activities covered by the projects, the
      County should have reduced the projects’ eligible costs by $19,237. Therefore, we
      question the $19,237 as shown in table 2.

                           Table 2: Costs Covered by FHWA Funding
                            Project         Amount      Questioned
                           Number          Awarded         Costs
                             7477               $12,875     f$3,796
                             7530                30,956       9,292
                             7496                33,856       6,149
                             Total             $ 77,687    $ 19,237

   •	 The County received $3,635,139 of FHWA funding for debris removal activities on
      federal-aid roads, but credited only $3,540,869 to the FEMA projects, leaving an
      unapplied balance of $94,270. We were unable to determine the methodology used by
      the County to allocate the FHWA funding to the FEMA projects. Therefore, we question
      the unapplied balance of $94,270 under Project 7469 because it was the project under
      which the largest volume of debris was removed from federal-aid roads.

County officials disagreed with this finding. They said that they would review project
supporting documentation.




www.oig.dhs.gov	                                                                         DA-13-22
                                               7

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

Finding F: Excessive Costs

The County’s claim under Project 7738 included $9,222 of excessive costs because of a
mathematical error. According to 2 CFR 225, CostfPrinciplesfforfState,fLocalfandfIndianfTribalf
Governments,fAppendix A, Section(C)(1)(a), costs under Federal awards must be both
reasonable and necessary. In addition, 44 CFR 206.205(b) requires that payments under large
projects be based on actual costs incurred for eligible work.

The County claimed $25,557 under Project 7738 for the use of two helicopters. However, the
claim was overstated by $9,222 because a FEMA inspector inadvertently multiplied an incorrect
hourly rate for the helicopters during project closeout. Applying the correct hourly rate, total
costs should have been $16,335 instead of $25,557. Therefore, we question the difference of
$9,222.

County officials agreed with this finding.

Finding G: Administrative Allowance

The County received $25,190 of ineligible administrative allowance funding under Project 2400.
Under Section 406(f) of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as
amended, the County is entitled to an administrative allowance based on a statutory formula to
cover the costs associated with requesting, obtaining, and administering FEMA awards.3
Federal regulation 44 CFR 206.228(a)(3)(ii) limits administrative costs to that allowance.

FEMA advanced $7,264,304 under Project 2400 for debris removal activities completed by the
County. The funding consisted of $7,192,080 for debris removal activities and $72,224 for the
administrative allowance. The County provided documentation to support the advance.
However, FEMA deobligated $7,192,080 for debris removal funding and only $47,034 for the
administrative allowance, leaving a balance of $25,190 administrative allowance obligated.
FEMA later reallocated the debris funding (direct costs and administrative allowance) to other
projects, but mistakenly did not deobligate the $25,190 of administrative allowance that
remained for Project 2400. Therefore, we question the $25,190.

County officials agreed with this finding.




3
 While Section 406(f) was used to establish management cost rates at the time of the disaster, it was repealed in
2007 when FEMA promulgated regulations at 44 CFR Part 207.



www.oig.dhs.gov                                                                                         DA-13-22
                                                        8

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



                                    RECOMMENDATIONS 


We recommend that the Regional Administrator, FEMA Region IV: 


Recommendation #1: Instruct the State to reemphasize to the County its need to account for
FEMA project expenditures on a project-by-project basis as required by Federal regulations and
FEMA guidelines (finding A).

Recommendation #2: Disallow $1,013,578 (Federal share $912,220) of unsupported contract
costs unless the County provides additional support for the costs questioned (finding B).

Recommendation #3: Disallow $277,596 (Federal share $249,837) of insurance benefits not
deducted from project costs unless the County can provide sufficient evidence that the costs
were not covered by insurance (finding C).

Recommendation #4: Conduct a full review of the County’s statement of insurance losses and
proceeds and reduce project costs accordingly (finding C).

Recommendation #5: Disallow $156,651(Federal share $140,986) of ineligible projects costs.
We also recommend that FEMA reviews the contract labor charges for the period of October 1–
15, 2004, and make a determination on the eligibility of the costs (finding D).

Recommendation #6: Disallow $113,507(Federal share $103,465) of debris removal activities
that were funded by the Federal Highway Administration (finding E).

Recommendation #7: Disallow $9,222(Federal share $8,300) of excessive costs (finding F).

Recommendation #8: Disallow $25,190 (Federal share $25,190) of ineligible administrative
allowance paid to the County (finding G).




www.oig.dhs.gov                                                                        DA-13-22
                                               9

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP 


We discussed the results of our audit with County, State, and FEMA officials during our audit.
We also provided a draft report in advance to these officials and discussed it at the exit
conference held on April 29, 2013. County officials’ comments, where appropriate, are
incorporated into the body of this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, we will consider the
recommendations as open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Major contributors to this report are David Kimble, Eastern Region Audit Director;
Adrianne Bryant, Audit Manager; Helen White, Auditor-in-charge; Vilmarie Serrano, Senior
Auditor; and Jerry Aubin, Program Analyst.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                                                                         DA-13-22
                                               10

                                                     OFFICE OF INSPECTOR GENERAL
                                                            Department of Homeland Security

                                                                                                                           Exhibit

                                                            Schedule of Projects Audited

                                                                        FEMA
 Project                                                              Category of   Amount          Amount        Federal
 Number                        Project Scope                             Work       Awarded        Questioned      Share        Finding
  7469        Debris Removal – Solid Waste Authority                      A          $ 2,827,196        $94,270       $84,843      E
  7593        Debris Removal – Solid Waste Authority                       A           2,491,566
  7602        Debris Removal – Solid Waste Authority                       A           1,373,622
  7907        Debris Removal – Solid Waste Authority                      A            1,193,954        141,131      127,018     B, D
  8107        Debris Removal – Solid Waste Authority                      A            1,062,995        187,400      168,660     B, D
  7487        Debris Removal – Solid Waste Authority                      A              693,382
  2400        Debris Removal – Solid Waste Authority                      A                    –         25,190       25,190       G
  7738        Protective Measures – Sheriff’s Dept.                        B           1,790,753         38,114       34,303    B, D, F
  7727        Protective Measures – Sheriff’s Dept.                        B           1,616,572
   8079       Protective Measures – Water Utilities Dept.                  B           1,313,037        812,806      731,525         B
   8289       Public Buildings and Facilities – Building 503              E            2,632,691        140,000      126,000         C
              Public Buildings and Facilities – Emergency                 E
   7829       Remediation                                                                938,463
   8084       Public Utilities – Solid Waste Authority                    F              916,112
   1508       Recreational Facilities – Beach Renourishment               G            4,072,264
   1438       Recreational Facilities – Beach Renourishment               G            1,549,166
   7724       Public Buildings and Facilities – Palm Tran                 E              116,694        116,694      105,025         C
              Connection
Large Project Total                                                                 $24,588,467      $1,555,605    $1,402,564
   7477       Debris Removal – Solid Waste Authority                      A              12,875           3,796         3,796        E
   7530       Debris Removal – Solid Waste Authority                      A              30,956           9,292         9,292        E
   7496       Debris Removal – Solid Waste Authority                      A              33,856           6,149         5,534        E
   3967       Public Buildings and Facilities – Fire Station No. 43       E              30,761           3,599         3,239        C
   4050       Public Buildings and Facilities – Paul Rardin Park          E              19,987           7,200         6,480        C
              Picnic Shelters
  3704        Public Buildings and Facilities – Fire Station No. 15       E                9,471          6,000        5,400         C
  3975        Public Buildings and Facilities – Fire Station No. 29       E                4,103          4,103        3,693         C
Small Project Total                                                                    $ 142,009       $ 40,139      $37,434
Total                                                                               $24,730,476      $1,595,744    $1,439,998




        www.oig.dhs.gov                                                                                                  DA-13-22
                                                                              11
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

                                                                        Appendix


                                    Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief of Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (G-12-041-EMO-FEMA)

State
State Auditor, Florida
Executive Director, Florida Division of Emergency Management

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Subgrantee
Audit Liaison, Palm Beach County

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure




www.oig.dhs.gov                                                          DA-13-22
                                            12

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
